              OFFICE OF
              INSPECTOR GENERAL
              U.S.DEPARTMENT OFTHE INTERIOR

                                                                                        August 7, 2013

Memorandum

To:            Rhea Suh
               Assistant Secretary for Policy, Management, and Budget

               Eric Eisenstein
               Division Chief, Internal Control and Audit Follow-up,
               Office of Financial Manage      t

From:          Charles Barna
               Regional Man       r or Audits, Inspections, and Evaluations

Subject:       Verification Review of Recommendations from the May 4, 2009 Audit Report,
               "Bureau of Land Management- Mining Claimant Administration" (Report No.
               C-IN-BLM-0011-2008)
               Report No. C-VS-BLM-0003-2013

         We have completed a verification review of the three recommendations presented in the
subject audit report: "Bureau of Land Management - Mining Claimant Administration." The
objective of the verification was to determine whether the Bureau of Land Management (BLM)
implemented the recommendations as reported to the Office of Financial Management (PFM);
Office of Policy, Management and Budget. PFM reported to us when each of the three
recommendations in the report had been addressed. Based on our verification, we concluded that
all three recommendations are resolved and implemented.

Background

        In our report, we made three recommendations designed to determine how BLM might be
more effective in working with claim holders (claimants) to mitigate the most serious physical
safety hazards that existed before current claims were filed. Specifically, we found that BLM has
often been unable to effectively identify, notify, or request cooperation from claimants to
mitigate these hazards.

        The Acting Assistant Secretary for Land and Minerals Management concurred with the
report's recommendations in a memorandum dated April 20, 2009. As a result, we referred all
three of the report's recommendations to the Assistant Secretary for Policy, Management and
Budget for implementation tracking on July 16, 2009.

      PFM notified us that BLM had completed the actions required to close all three
recommendations in memoranda dated July 28, 2010, and December 9, 2010.


                        Office of Audits, Inspections, and Evaluations I Lakewood, CO
Scope and Methodology

      The scope of this review was limited to documenting BLM’s implementation of our
recommendations. To accomplish our objective, we reviewed the supporting documentation that
BLM officials provided to PFM and us. We discussed BLM’s actions taken on each of the three
recommendations and independently verified their implementation.

        We did not perform any site visits or conduct fieldwork to determine if the underlying
deficiencies we initially identified were corrected. As a result, this review is not conducted in
accordance with Generally Accepted Government Auditing Standards issued by the Comptroller
General of the United States or the Quality Standards for Inspection and Evaluation put forth by
the Council of the Inspectors General on Integrity and Efficiency.

Results of Review

       We concluded that BLM had resolved and implemented Recommendations 1, 2, and 3.

       Recommendation 1: Inform field staff of the scope of BLM's authority to ensure that
       abandoned mine hazards on mining claims are mitigated.

       We consider Recommendation 1 resolved and implemented.

Action Taken: In December 2009, BLM issued Instruction Memorandum (IM) 2010-045
entitled "Guidance for the Mitigation of Abandoned Mine Hazards on Active Mining Claims.”
The purpose of this IM is to inform field office personnel of BLM's responsibility and authority
mitigating abandoned mine hazards on active mining claims and establish the proper procedure
to determine claimant responsibility. The IM also provides guidance on using cooperative
agreements with State agencies relating to coordinating and mitigating abandoned mine hazards.
The IM informs BLM field staff of the scope of BLM's authority for mitigating mine hazards on
mining claims as follows:

   •   Pursuant to Section 302(b) of the Federal Land Policy and Management Act, BLM is
       required to take any action necessary to prevent unnecessary or undue degradation of
       public lands. BLM will continue efforts to mitigate abandoned mine hazards on active
       mining claims; either on its own or with partnering organizations.

   •   When BLM field personnel have determined that a mine poses an imminent threat to
       public health and the environment, field personnel will make a reasonable effort to
       inform known mining claimants of any planned mitigation before the mitigation effort
       begins.

   •   If the mining claimant protests or takes action to prevent BLM's proposed mitigation
       actions, the mining claimant will become responsible for maintaining that mine opening
       in a safe and secure condition. BLM will initiate efforts for the mining claimant to accept
       financial responsibility for site maintenance, including protection of public health and the
       environment. The mining claimant will be required to submit an approved financial
       guarantee in accordance with 43 C.F.R. §§3809.500-3809.599 to cover public health and


                                                2
       environment, and BLM must undertake the necessary mitigation actions in accordance
       with the guidelines set forth in the “Abandoned Mine Lands Program Policy Handbook”
       (BLM Handbook H-3720-1). BLM will regulate these sites as "activities exceeding
       casual use," and the mining claimants will be required to comply with surface
       management regulations at 43 C.F.R. § 3809.10.

   •   These mitigation actions must be taken to protect public health and the environment from
       immediate threat during the resolution of any protests from the mining claimant.
       Depending upon the resolution of the protests, either the mining claimant or BLM will
       complete mitigation for the mining hazard.

       Recommendation 2: Complete—in cooperation with the Office of the Solicitor—and
       implement the proposed IM addressing abandoned mine hazards. At a minimum, the IM
       should address the principles identified in Attachment 3 for working with claimants to
       address abandoned mine hazards on their claims.

       We consider Recommendation 2 to be resolved and implemented.

Action Taken: The referenced principles cited in support of this recommendation from the
issued OIG report are as follows:

   •   Mining Claim Identification. How offices are to identify the location of mining claims
       and respective claimants.
   •   Notification of Claimants and Solicitation of Cooperation. How offices should notify
       claimants and work with them to ensure mitigation of hazards.
   •   Hazard Mitigation. How BLM field offices should proceed if claimants do not exist,
       cannot be found, or do not mitigate hazards after being notified. For the most serious
       physical hazards, BLM should, at a minimum, erect fences and signs to protect the
       public. BLM should work with the States that have laws requiring claimants to protect
       the public to report hazards so that States can take action.

    In September 2010, BLM issued IM 2010-211 entitled "Procedures for Identifying and
Notifying Claimants on Active Mining Claims when Mitigating Abandoned Mine Hazards on
Active Mining Claims.” The IM provides guidance to BLM's field offices in the proper
procedures for identifying and notifying mining claimants when mitigating abandoned mine land
(AML) features on active mining claims. In addition, field offices are notified of a public
outreach effort to claimants whose mining claims may contain AML features within their
boundaries. The IM’s guidance to BLM field offices for each of the three principles is as
follows:

   Principle 1: Mining Claim Identification.

    Prior to conducting mitigation activities at a site, BLM personnel must determine whether
there are any mining claims at the site and whether any such claims are "active" by conducting a
mining claim record search using BLM's Legacy Rehost System 2000 (LR2000) database. Field
offices must run two reports to obtain (1) the existence of an active mining claim, and (2) the
address of record, which describes the location of the mining claims by township, section, and

                                               3
range. To determine if the AML is within the boundaries of the mining claim, a location map
should be requested from the State office. Assistance from the field office geologist or cadastral
surveyor may be required.

    Principle 2: Notification of Claimants and Solicitation of Cooperation.

    BLM's Solid Minerals Division, Minerals and Realty Directorate, will disseminate a "General
Notice" to mining claimants of record whose mining claims were identified as containing
abandoned mine hazards. The notice informs claimants of BLM’s policy (IM-2010-045) that if a
claimant maintains an abandoned mine hazard solely for the purpose of preserving access for
future mining or exploration activities, then the claimant's use of the site exceeds casual use and
such use requires compliance with 43 C.F.R. § 3809.10, including the submittal of a financial
guarantee. The notice also reminds claimants of BLM's commitment to mitigate mine hazards on
public lands through the “Fix a Shaft Today!” program, also known as FAST.

    Dissemination of the notice will encourage claimants to contact local field offices if their
activities include access to, or use of, an abandoned mine feature that has not already been
authorized by BLM.

    Principle 3: Hazard Mitigation.

    This principle is covered under IM 2010-045, issued December 16, 2009, for BLM's actions
to address Recommendations 1 and 3 of the OIG report.

       Recommendation 3: Maximize the use of cooperative agreements with States to
       mitigate abandoned mine hazards on mining claims, particularly with those that have
       mine site mitigation enforcement laws, as do Nevada and Arizona.

       We consider Recommendation 3 resolved and implemented.

Action Taken: In December 2009, BLM issued Instruction Memorandum (IM) 2010-045
entitled "Guidance for the Mitigation of Abandoned Mine Hazards on Active Mining Claims.”
The purpose of this IM is to inform field office personnel of BLM's responsibility and authority
mitigating abandoned mine hazards on active mining claims and establish the proper procedure
to determine claimant responsibility. The IM also provides guidance on the use of cooperative
agreements with State agencies as it relates to the coordination and mitigation of abandoned
mine land hazards. The IM encourages AML and Surface Management’s lead staff members to
do the following:

•   Use existing cooperative agreements with State agencies, when practical, to coordinate
    mitigation of abandoned mine land hazards. These cooperative agreements have been used
    successfully to streamline mitigation and reduce associated costs. States without cooperative
    agreements are encouraged to meet with their respective State agencies to study the
    feasibility of such an agreement, and if practical and feasible, to implement them in a timely
    manner.




                                                 4
•   Review the current state of its cooperative agreement and provide a report to the Division of
    Environmental Quality. For State offices that do not have a cooperative agreement, the report
    must describe what actions have been made to initiate an agreement and include an action
    plan to initiate such an agreement. This report is due by April 30, 2010.

     Although a report was not available as required by the IM, BLM State offices provided
information regarding the current status of agreements between BLM’s AML program and other
State agencies for mitigating AML hazards. We concluded that 10 of the 11 responding BLM
State offices have either established an agreement with State agencies or have implemented
alternative actions to comply with the IM. Only one State office does not have an agreement with
its State agency counterparts.

Conclusion

       We informed BLM officials of the results of this review on June 12, 2013. BLM officials
agreed with the results of our review.


cc: Neil Kornze, Bureau of Land Management, Principal Deputy Director
    LaVanna Stevenson, Bureau of Land Management, Audit Liaison Officer
    Nancy Thomas, Audit Liaison Officer, Office of Financial Management




                                                5
